         estimony

                    STATEMENT OF
                  DONALD MANCUSO
              DEPUTY INSPECTOR GENERAL
               DEPARTMENT OF DEFENSE
                     BEFORE THE
         SUBCOMMITTEE ON NATIONAL SECURITY,
    VETERANS AFFAIRS AND INTERNATIONAL RELATIONS
      HOUSE COMMITTEE ON GOVERNMENT REFORM
                         ON
          COMBATING TERRORISM: INDIVIDUAL
        PROTECTIVE EQUIPMENT FOR U.S. FORCES,
           INVENTORY AND QUALITY CONTROLS



Report No. D-2000-154         DELIVERED: June 21, 2000



             Office of the Inspector General
                 Department of Defense
                                                                    1

Mr. Chairman and Members of the Subcommittee:



Thank you for the opportunity to appear before your Committee

today to address your questions regarding the status of

individual equipment intended to protect our military forces

from chemical and biological attacks.   I share your concerns

with respect to the Department’s inventories, quality controls,

and serviceability of equipment.



The threat of chemical and biological weapons is clearly

increasing in range and frequency in the world today.   There are

over twenty countries with known or suspected chemical and

biological weapons programs, and these weapons constitute one of

the greatest threats to the United States and to our military

forces.   Because the countries which are of greatest concern to

the United States are also in regions in which we have well

defined national security interests, we must demonstrate our

resolve to protect our forces with the best available individual

equipment to protect our military forces from chemical and

biological attacks.    However, despite this critical force

protection requirement, the business of protecting our forces

from chemical and biological attacks is expensive and vulnerable

to fraud, waste, and mismanagement.
                                                                   2


My office has made efforts, through audits and criminal

investigations, to address the potential for fraud, waste, and

abuse in individual protective equipment.   We have conducted

many audits since the establishment of the Office of Inspector

General in 1982 concerning such equipment, to include the five

audits your invitation letter specifically requested me to

discuss.   A criminal investigation that my office recently

completed also concerned contractor fraud in the manufacture of

protective suits.   I will start with a discussion on the two

reports addressing inventory management of chemical protective

suits and the related criminal investigation.



Chemical Protective Suit Inventory Accuracy

     Report No. 97-102, Inventory Accuracy at the Defense Depot,

Columbus, Ohio, February 27, 1997



As part of the annual audits required by the Chief Financial

Officers Act of 1990 and related legislation, during mid-1996 we

audited the accuracy of inventory records for materiel stored at

the Defense Depot in Columbus, Ohio.   Depot inventory records,

which are maintained in the automated Defense Logistics Agency

Distribution Standard System, are used for both item management

purposes and for compiling financial statements.   The Defense

Logistics Agency reported the value of materiel stored at the
                                                                     3


Depot during that timeframe as $756 million.    About 268,400

types of materiel were stored in over 700,000 warehouse

locations on the Depot’s premises.



For the audit, we selected 44 items listed on the inventory

records to determine whether those records matched physical

counts taken by Depot personnel.    The sampled items included six

types of chemical protective suits (hereinafter referred to as

protective suits), for which another Defense Logistics Agency

component, the Defense Supply Center, Philadelphia, Pennsylvania

is the purchasing activity.    In accordance with standard

procedures for this type of audit, we observed the counts as the

Depot personnel performed them.



The Distribution Standard System records indicated that the

Depot had 2,178,583 suits of the six types in our sample at

1,043 warehouse locations.    The physical counts at those

locations, however, identified major discrepancies.    The actual

inventory for four types of protective suits was so much lower

than reflected that a $46.4 million adjustment for losses was

required.    Conversely, records for two other types of protective

suits required $24.6 million of adjustments for gains,

indicating protective suits on-hand that were not on the

records.    On a net basis, there were 423,062 fewer protective
                                                                    4


suits actually on-hand than in the records for those locations.

At 728 other locations that were not identified as containing

protective suits, we found an additional 696,380 protective

suits, worth $51 million, that were not on the inventory

records.   This was such a poor result that, instead of merely

incorporating the matter into the annual financial statement

audit report, we issued a separate report specifically on this

issue.



Protective suits are a critical war reserve item and the supply

community must be able to respond rapidly and efficiently to

requests for protective suits from units that are either

deploying or on standby to deploy. Protective suits have

specified shelf lives and samples are periodically inspected in

a quality surveillance program.   For this reason, the general

lack of adequate inventory control over protective suits was

very surprising.   If anything, one would have expected more

emphasis than usual on these items.   Instead, the auditors found

a series of poor inventory management practices.   For example,

some storage locations for protective suits were improperly

marked and therefore none of their contents were listed in the

records.   Organizational realignment at the Depot and staffing

reductions contributed to these poor practices.    Significantly,
                                                                     5


the Depot’s Inventory Integrity Branch had been reduced by 74

percent.



We made four recommendations to regain inventory control for the

chemical protective suits.   Managers implemented each

recommendation or took an acceptable alternative action.    The

Defense Logistics Agency subsequently advised us that all

protective suits had been located, inventoried and posted to

inventory records by the Defense Depot, Columbus, as of

November 24, 1997.   Shortly thereafter, as part of the effort to

consolidate overall supply depot operations, the protective

suits were transferred to the Defense Depot, Albany, Georgia.



Followup Audit on Chemical Protective Suits

     Report No. D-2000-086, Assuring Condition and Inventory

Accountability of Chemical Protective Suits, February 25, 2000



During late FY 1999, again as part of our annual financial

statement audits, we observed the physical inventory count for

158 items stored at Defense Depot, Albany.    We later discovered

that, instead of improving inventory management, the transfer of

the protective suits to Defense Depot, Albany, had the opposite

effect.    The inventory records for one of those items, a type of

chemical protective suit, were materially inaccurate.    Although
                                                                    6


the records indicated 225,202 protective suits on hand, the

physical count was 31,277 less.    Depot personnel attributed the

problem to the large volume of protective suits transferred from

Columbus in a short period of time.   Due to a lack of staffing,

the quantity of each of the 20 types of protective suits

transferred to Albany was never verified.   According to the

inventory records, however, there were another 1.14 million

protective suits of 19 other types in stock at the Depot.      We

recommended a wall-to-wall inventory of all protective suits,

research to determine the causes of inaccuracy in the records

and correction of those records.   The Defense Logistics Agency

concurred.



The wall-to-wall inventory was completed in January 2000.

Of the 31,277 protective suits, 23,488 were found misplaced in

other storage areas.   The remaining discrepancy of 7,789

protective suits was caused, according to the Defense Logistics

Agency, by an incorrect count when the material was received.



During the audit, we also observed that the Defense Logistics

Agency had failed to separate potentially defective protective

suits from the active inventory.   The potential defects were the

focus of an on-going criminal investigation, which I will

discuss next.   The auditors recommended that efforts to identify
                                                                    7


and separate protective suits purchased under two suspect

contracts be completed and those protective suits be removed

from active inventory.    We also recommended that the Defense

Logistics Agency alert all DoD activities to whom protective

suits from those contracts had been issued.    The Defense

Logistics Agency agreed with those recommendations and has

advised us that segregation of the potentially defective

protective suits was completed.    Final disposition instructions

were provided in May 2000.


Isratex Case


The aforementioned criminal investigation was initiated in May

1993 as a result of a Defense Logistics Agency fraud referral

regarding a company called Isratex, Incorporated.    The referral

was directed to the Defense Criminal Investigative Service, the

criminal investigative arm of our office, and alleged that a

Puerto Rico based subsidiary of Isratex (Isratex-PR) was

providing defective and non-conforming coveralls and coats to

the Department of Defense.    During the Government inspection

process, employees of Isratex-PR allegedly provided items of

clothing that were manufactured to contract specifications to

the Government Quality Assurance Representative for acceptance

inspection.    Once the acceptance inspection was completed,

however, Isratex-PR employees actually shipped other items of
                                                                   8



clothing that were knowingly made with non-conforming materials

and assembled in a substandard manner.



Our investigation, which included subsequent testing of

Isratex-PR manufactured coveralls and coats stored in Defense

depots, established there were significant defects in

workmanship and the material used to manufacture these items.

The investigation determined that managers of Isratex-PR, as

well as corporate officers of the parent company in New York,

were implicated in the scheme to provide defective clothing to

the Military Services and Federal Prison Industries.



In November 1994, the focus of our investigative efforts shifted

from non-conforming coats and coveralls to the manufacture of

protective suits called Battle Dress Overalls (BDOs) by an

Isratex facility in West Virginia.   BDOs are a type of

protective suit designed to be worn over a soldier's uniform to

seal out biological and chemical agents.   Isratex was awarded

two contracts to produce BDOs, one in 1989 and the other in

1992.   The contractor produced 605,854 BDOs valued at $35

million under its 1989 contract and 173,070 BDOs valued at $12.9

million under its 1992 contract.



In January 1996, a quality inspection of the BDOs manufactured

under the 1992 contract was conducted by the Defense Logistics

Agency, at our request.   The inspection found significant

defects, such as open seams, which by contract specification
                                                                    9



called for the entire lot of BDOs to be withheld from

distribution to the field.   The Defense Logistics Agency

initially segregated the BDOs that had been delivered under the

1992 contract, preventing operational distribution.   However,

three months later, they concluded that the BDOs were

serviceable and returned them to regular stock, leading to the

audit finding that I discussed previously.



On October 2, 1998, a 12 count Grand Jury indictment was

unsealed against Isratex, its subsidiaries, two principal

officers, and several of its employees charging conspiracy to

submit false claims, false claims, and major fraud.   In

addition, a previously sealed information and the guilty pleas

of three Isratex-PR officials for false claims and arson were

unsealed.   The October 1998 indictment was superseded on May 10,

1999, by a 23 count indictment with additional charges against

company officials.



The corporation, its subsidiary in Puerto Rico, two principal

officers and nine employees later pleaded guilty to various

charges including making false or fraudulent claims, obstruction

of justice, arson, and making false statements.   Sentencing took

place in April and May 2000.   The corporation and its

subsidiaries were fined $266,825 and $96,669, respectively.

The principal officers and several employees received fines

ranging from $3,000 to $40,000 and were ordered to pay $195,000

in restitution.   Eleven individuals were sentenced to
                                                                     10



incarceration for terms ranging up to six months and one day or

periods of probation of up to two years.



These protective suits were inspected again, at our request, in

August 1999 by the U.S. Army Soldier Systems Center, Natick,

Massachusetts and critical defects were found in addition to the

defects already noted by the previous inspection.     A quality

inspection in May 2000, conducted by both the Army and the

Defense Logistics Agency, of the BDOs manufactured under the

1989 Isratex contract found several critical defects similar to

those in BDOs manufactured under the 1992 contract.     On May 19,

2000, the Defense Logistics Agency issued a worldwide "Chemical

Clothing Alert" regarding protective suits from both the 1989

and 1992 Isratex contracts.   The alert advised the Military

Services that these BDOs "must be designated for training only."



Chemical Protective Masks
     Report No. 94-154, Reliability of M-17 Series and M-40

Chemical Protective Masks, June 30, 1994   (Secret)

     Report No. 95-021, Defense Hotline Allegations Regarding

DoD Fielding of Chemical Protective Masks, November 2, 1994

(Secret)

     Report No. 99-061. M41 Protective Assessment Test System

Capabilities, December 24, 1998



Let me now turn to the three reports on chemical protective

masks (hereinafter referred to as protective masks).     Those
                                                                     11



reports were issued in June 1994, November 1994, and December

1998.



In July 1993, the Defense Hotline received allegations

concerning problems with the serviceability and integrity of the

chemical protective masks that were then in use.   In addition,

concerns were expressed about the design and production of new

replacement protective masks.    Our audit reports in response to

the Hotline complaints were issued in June 1994 and November

1994.   Because both reports were classified by the Department as

Secret, we are constrained in terms of including certain details

in this open hearing.



To assess the Hotline allegations, we selected and tested a

random sample of Army M17 series and M40 protective masks.     The

Army provided funding for the testing, which was performed by

the Marine Corps Test and Evaluation Unit.   Both the M17 series

and M40 protective masks were tested using Army-authorized

chemical test equipment and production test criteria.     These

criteria were the same criteria used by the Army in determining

requirements for its $280 million program during the 1980’s for

testing and rebuilding M17 series protective masks, in an effort

known as Operation Rock Ready.   The test operators for our tests

were certified on the test equipment by the Defensive Chemical

Test Equipment Division, Pine Bluff, Arsenal.   An Army

representative from the Chemical and Biological Defense Command
                                                                    12



and members of the audit team were present for oversight and

verification at all test sites.



For the initial sample, we selected and tested 753 (376 M17

series and 377 M40) protective masks on the M14 Mask Leakage,

the M4A1 Outlet Valve Leakage, and the Q204 Air Leak, Dry Bubble

serviceability testers.   The M14 tests the overall mask for

leaks; the M4A1 tests the outlet valve for leaks; and the Q204

tests the drink tube quick-disconnect for leaks.    A visual

inspection test was also performed on all protective masks to

identify defects and missing parts.    In addition, from the

initial sample of 753 masks, we selected 147 M17 series masks

for further testing on the M41 Mask Fit Validation System, which

in November 1994 was renamed the Protection Assessment Test

System.   The M41 is a portable instrument that measures the fit

of a specific mask to a soldier.   At the Army’s request, we

selected a second sample of another 154 M40 masks for testing on

all four testers.



A variety of testing is performed throughout the life cycle of

protective masks.   First, there is quality assurance and

acceptance testing at the factory.    Mask condition is also

tested periodically during its service life, in what would be

termed surveillance or serviceability testing.    When a mask has

been issued to an individual, it needs to be checked for proper

fit and serviceability.
                                                                  13



Our June 1994 report was essentially a preliminary report on

significant problems indicated by our testing and other data

collection, which generally substantiated the Hotline

allegations.



Our November 1994 report included four findings on mask design

and production issues, acceptance testing, maintenance and

periodic testing of fielded masks.



Design and Production Issues
     Report No. 95-021, Defense Hotline Allegations Regarding

DoD Fielding of Chemical Protective Masks, November 2, 1994

(Secret)



Our next report was the result of a review of Hotline

allegations that specifically referred to design and

manufacturing problems involving the M40 and M42 protective

masks.   The M42 is the combat vehicle crew version of the M40.

These protective masks had troubled acquisition histories, with

a wide variety of problems including significant schedule

slippage; multiple contractor bid protests and termination

disputes; and design and production defects.   Although the Army,

in response to our November 1994 report, stated that the program

had been intensively managed and that repeated testing had

corrected any design deficiencies, we identified several

remaining problems.   While classification issues preclude

further discussion, we recommended that the Army develop and
                                                                    14



implement an action plan to correct the outstanding

deficiencies.     The Army took responsive action.



Acceptance Testing



The Army did not ensure adequate acceptance testing of M40 and

M42 masks at one contractor location.     Those concerns became

moot when that contractor was not selected for further M40 and

M42 masks production.



Maintenance and Cyclic Testing


Much military equipment is “ruggedized” to withstand wear and

tear and to function in difficult operating conditions.     It is

very difficult, however, to design protective masks that are

impervious to environmental and operational factors, including

heavy physical exertion, inadequate maintenance, or misuse by

the wearer.     For this reason, a major challenge exists in the

area of Preventative Maintenance Checks and Services (PMCS),

especially in units such as infantry.



We found strong indications that soldiers were not following

prescribed procedures when performing PMCS on chemical

protective masks or reporting maintenance problems as required

by the Operator’s Manual for Chemical-Biological Masks.     The

soldiers with the M40 masks selected as part of our test sample

were instructed to perform PMCS before submitting their masks
                                                                     15



for testing.   In spite of PMCS allegedly being performed before

testing, we found through visual inspection that many masks were

not reassembled correctly.     In addition, a visual inspection of

the sampled masks identified conditions, such as cracked eye

lenses and missing parts, that would not have existed if PMCS

had been done properly.



It is our position that the adequacy of PMCS can best be

determined by an aggressive program of periodic surveillance

testing of masks whether in the hands of users or in war

reserves.   At the time of our audit, only the Marine Corps had a

cyclic surveillance testing program.     Throughout the ensuing six

years, our primary goal has been for the Services to ensure that

battlefield risk is minimized by verifying mask reliability

often and rigorously.     To assure testing rigor, it is clearly

important that the performance criteria for the masks be

standard, explicit, and demonstrably based on updated threat

assessments.



Response to Our Audit Finding



During the audit, the Army took immediate action on one of our

concerns by changing the standard for the first depot

surveillance inspection of masks from 60 months to 24 months

from the date of manufacture and packing.     In our November 1994

report, we recommended ten additional actions, including the

establishment of a standardized DoD-wide cyclic testing program
                                                                   16



and the development of specific criteria for testing fielded

masks.



In general, the Deputy for Chemical/Biological Matters, Office

of the Assistant Secretary of Defense (Atomic Energy) and the

Services agreed that maintenance practices and training needed

improvement.   The Deputy for Chemical/Biological Matters also

agreed that valid concerns about the need for surveillance

testing and what test standards were appropriate needed to be

addressed, but the Army comments and actions on the testing

issues were nonresponsive.   To resolve the outstanding issues,

in June 1995 the Department agreed to initiate a Pilot Retail

Chemical Mask Surveillance Study.   A Joint Service Mask

Technical Working Group was established to conduct the study,

under the auspices of the Joint Services Material Group.    The

IG, DoD, worked closely with the Working Group to formulate the

sampling plans for the study and we also had a representative on

the Working Group.



The results of the study were presented in the Final Mask

Surveillance Pilot Program Report of November 15, 1999.    In

brief, results of this study released in November 1999 validated

the concerns that we had reported in 1994.    Of 19,218 masks that

were tested, 10,322 had critical defects.    However, the Deputy

Assistant for Chemical/Biological Defense informed us in March

2000 that “there is no indication of extensive mask degradation

over time or through field usage other than through wear and
                                                                   17



tear which is exacerbated by a lack of field/fleet maintenance.”

Furthermore, on those grounds, the Deputy Assistant rejected the

Working Group’s recommendation for a centralized mask

surveillance testing program.    As a result of these decisions,

mask defects continue to be viewed as a “logistics sustainment”

issue, thereby relying on the individual Services to improve

maintenance practices.   The study also failed to produce agreed-

upon test criteria, which I will address further in the context

of our December 1998 report.



We were frankly disappointed that the Deputy Assistant was

unable to provide us the details of what the Services were doing

to address the alarming test failure rates and had taken the

position that her office’s responsibilities extended only to new

equipment acquisition, not readiness oversight.    We requested

the Services provide details of their actions and plans and are

generally satisfied with the responses.    All Services now

acknowledge the need for continued mask surveillance testing and

are taking appropriate implementation measures.    We intend to

audit the effectiveness of these efforts after they have been

implemented for a year or two.    Depending on the results, it may

be appropriate to revisit the issue of Office of the Secretary

of Defense or Joint Staff level oversight in the future.
                                                                   18



M41 Protection Assessment Test System Capabilities

     Report No. 99-061, M41 Protective Assessment Test System

Capabilities, December 24, 1998



Let me now turn to our December 1998 report on the M41

Protective Assessment Test System Capabilities.   In November

1995, the Joint Service Mask Technical Working Group issued a

report, “Mask Criteria Analysis and Test Requirements,” stating

that the M41 was appropriate for testing the combat readiness of

negative pressure masks, such as the M17 series, M40, and M42

protective masks.   According to that report, the combination of

Preventative Maintenance Checks and Services and a mask fit

verified with the M41 would be sufficient to assure mask

readiness.   This had been the Army position for several years.

Based on what we had learned about the limitations of the M41

system during the 1994 audit and in Working Group discussions,

we decided that a separate Inspector General, DoD, assessment of

this testing device’s capabilities would be useful.



Our review included obtaining input from 188 M41 operators at

four Army bases and the Army Chemical School.   The audit

confirmed that the suitability of the M41 as a combat readiness

tester was questionable because it was designed primarily as a

mask fit tester in other than realistic battlefield conditions.

We also reported that the Joint Service Materiel Group had not

finalized fit factor criteria for the M41, testers were not

being returned for calibration in a timely manner, and M41
                                                                    19



operators were not sufficiently trained and making full use of

the available testing equipment.



The issue of the lack of agreed-upon criteria for the testing of

fielded masks has proven difficult for the Department to

resolve.   The Army criticized the more stringent production test

criteria used by the Marine Corps for surveillance tests and for

our 1994 tests, but offered no substitute criteria for testing

fielded masks except an interim fit factor based on a outdated

1986 requirements analysis.     The fit factor is the ratio between

ambient air particles in the air outside the mask to particles

in the air inside the mask.     Our December 1998 report also

pointed out vast differences between and within the services for

programming the M41 system:



•   The Army was using an outdated interim fit factor pass or fail

    criterion of 1,667 for fielded masks for all units except

    chemical surety sites and the Chemical Defense Training

    Facility, which used a fit factor of 3,000.



•   The Marine Corps used the criterion of 6,667 for fielded masks

    until 1998, but changed to 3,000 to be consistent with the

    chemical surety sites and Chemical Defense Training Facility.



•   The Air Force used a fit factor of 2,000 during a Pacific Air

    Force pilot program in 1998, but was not committed to

    extensive use of the M41.
                                                                    20



•   The Navy had not decided on a fit factor and also was

    considering alternatives to the M41.



In response to the December 1998 audit report, the Assistant to

the Secretary of Defense for Nuclear and Chemical and Biological

Defense directed in March 1999 that the M41 be referred to by

its original nomenclature, a Protective Mask Fit Validation

System, not a combat readiness tester.     The Assistant tasked the

Army to provide input so that the Joint Nuclear, Chemical and

Biological Defense Board could try again to update the mask fit-

factor criteria.     The Army indicated in early June 2000 that the

Services had agreed to a new fit factor based on updated threat

data.



Most of the actions taken in reaction to our December 1998

report have been responsive, assuming the fit factor question is

actually resolved.    However, we remain concerned about the lack

of consistent serviceability testing and the criteria used in

that testing.   It is also important to note the ongoing

introduction into service of the TDA-99M Joint Service Mask

Leakage Tester, a portable tester that has the combined

capability of the entire family of previous test equipment for

protective masks.    This small “suitcase” tester may enable the

type of aggressive readiness testing in the field, for both fit

and condition, that would help the troops gain maximum

confidence in their masks.    Ironically, we have seen no
                                                                    21



indication to date that the Army intends to acquire this

equipment.



Other Chemical and Biological Defense Issues



In closing, it would be appropriate to note that chemical and

biological defense has been a primary focus of Inspector

General, DoD, readiness audits over the past few years.    I have

attached a list of these reports to this testimony.   Given the

importance of fully addressing the management challenges in this

difficult area, we have attempted to maintain continuous

coverage despite severe resource constraints and other

requirements.   Currently, we are auditing the National Guard

Weapon of Mass Destruction Civil Support Detachments and will

assess the chemical and biological defense readiness of the

Reserves later this year.   As previously mentioned, we will plan

a follow-up audit on mask maintenance and surveillance testing.

We will also initiate audits this summer discussing DoD efforts

to acquire the next generation of protective masks and the Joint

Biological Point Detection System as well as continue periodic

reviews of Defense Logistics Agency inventory accuracy.



Thank you for considering the views of my office on these

important matters.   This concludes my statement.
                                                                  22


                     Inspector General, DoD
           Reports on Chemical and Biological Defense


Report No. 94-154, Reliability of M-17 Series and M-40 Chemical
Protective Masks, June 30, 1994 (Secret)

Report No. 95-021, Defense Hotline Allegations Regarding DoD
Fielding of Chemical Protective Masks, November 2, 1994
(Secret)

Report No. 95-224, Army Chemical Protective Mask Requirements,
June 8, 1995

Report No. 97-018, The Patriot Advanced Capability-3 Program,
November 4, 1996

Report No. 97-102, Inventory Accuracy at the Defense Depot,
Columbus, Ohio, February 27, 1997

Report No. 97-217, Chemical and Biological Defense Readiness,
September 19, 1997 (Secret)

Report No. 98-174, Unit Chemical and Biological Defense
Readiness Training, July 17, 1998

Report No. 99-045, Chemical and Biological Warfare Defense
Resources in the U.S. Pacific Command, December 3, 1998
(Secret)

Report No. 99-061, M41 Protective Assessment Test System
Capabilities, December 24, 1998

Report No. 99-102, Chemical and Biological Defense Resources in
the U.S. European Command, March 4, 1999 (Secret)

IG Semiannual Report to Congress for the Period Ending March 31,
1999, Focus Area on Chemical and Biological Defense

Report No. D-2000-086, Assuring Condition and Inventory
Accountability of Chemical Protective Suits, February 25, 2000

Report No. D-2000-105, Contracting for Anthrax Vaccine,
March 22, 2000 (For Official Use Only)



              All reports listed above that are not
               Classified or For Official Use Only
       are available on the Internet at www.dodig.osd.mil.
